NO._ _ _ _ __

IN THE
SUPREME COURT OF THE UNITED STATES

THOMAS JAVION GUERRANT
Petitioner,
V.

UNITED STATES OF AMERICA
Respondent,

PROOF OF SERVICE
I, Randy V. Cargill, do swear or declare that on this 7th day of
July, 2021, as required by the Supreme Court Rule 29, I have served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party's counsel, and on every
other person required to be served, by delivering to Federal Express, for
second-day delivery, a package properly addressed to each of them and
containing the above documents.
The names and addresses of those served are as follows:
Solicitor General of the United States
U.S. Department of Justice
Room 5616

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
supremectbriefs@USDOJ.gov
(202) 514-2217

I declare under penalty of perjury that the foregoing is a true and
correct.

Executed on July 7, 2021.

QJ/C~

if?na.yV. Cargill

